OIG Investigative Reports, Former Georgia Education Official Sentenced for Making False Statements to Federal Agents
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE
July 21, 2006
http://www.usdoj.gov/usao/gan/
U. S. Attorney David E. Nahmias
Northern District of Georgia
75 Spring Street, S.W. - Suite 600
Atlanta, GA 30303-3309
Contact: Patrick Crosby
Tel: 404-581-6016
Fax: 404-581-6160
Former Georgia Education Official Sentenced for Making False Statements to Federal Agents
Atlanta, GA — MILLER E. FINLEY, 64, of Evans, Georgia, former Associate
Superintendent for Federal Financial Accountability under State School Superintendent
Linda C. Schrenko, was sentenced today by United States District Judge Clarence
Cooper to three years' probation and a fine of $4,000 for making false statements
to federal law enforcement agents during their investigation of the theft of
over $600,000 in education funds. FINLEY was also ordered to perform 140 hours
of community service. FINLEY pleaded guilty on January 20, 2005, to the felony
offense of making false statements to federal agents, and he cooperated with
federal authorities in the investigation and prosecution of Schrenko and her
co-conspirators, Merle Temple and Stephan Botes. Schrenko and Temple pleaded
guilty to fraud charges, and Botes was convicted of fraud charges following
a jury trial earlier this year.
United States Attorney David E. Nahmias said about the case, "Federal agents
expect and federal law requires that citizens interviewed during criminal investigations
will tell the truth. If they do not, they will face prosecution for false statements.
This sentence reflects the fact that Mr. Finley accepted responsibility for
his conduct and cooperated in the prosecution of others who were more culpable."
According to Nahmias, the plea agreement and evidence in the case: FINLEY was
employed as a federal programs manager in 2002 with the Georgia Department of
Education. In October 2004, FINLEY was interviewed by agents of the U.S. Department
of Education, Office of the Inspector General, and the FBI, and during the interview
FINLEY falsely stated to federal agents that Georgia Department of Education
checks totaling in excess of $500,000 were issued on July 24, 2002, in accordance
with normal Department procedures, and that Superintendent Schrenko became involved
in the issuance of those checks only after political factors had delayed their
issuance. FINLEY subsequently admitted that those checks were issued at the
explicit direction of Schrenko in a manner outside of standard Georgia Department
of Education procedures.
The case was investigated by Special Agents of the U.S. Department of Education,
Office of the Inspector General, and the FBI.
Assistant United States Attorneys Russell G. Vineyard and Daniel A. Caldwell
are prosecuting the case.
For further information please contact David E. Nahmias, United States Attorney
or F. Gentry Shelnutt, Chief, Criminal Division, through Patrick Crosby, Public
Affairs Officer, U.S. Attorney's Office, at (404) 581-6016. The Internet address
for the HomePage for the U.S. Attorney's Office for the Northern District of
Georgia is www.usdoj.gov/usao/gan.
Top
Printable view
Share this page
Last Modified: 09/08/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov